                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A03110064                                                                      Page 1 of 1



         We reviewed 71 grants selected by a random sampling procedure from NSF'Fiscal Year 2001
         awards for conferences, workshops and symposia. As part of the review, we requested grant
         records from each grantee. Where the records indicated possible issues, we opened inquiries to
         resolve the issues.

          In a grant that supported an astronomy conference1, our analysis indicated that program income
          was not properly handled. Specifically, the grantee's conference services component, which
          handled the event, subtracted conference costs from conference revenue without regard for cost
          allowability. The remaining funds were deposited into an account distinct from the grant
          accounts for the conference's two Federal sponsors.

          We opened an inquiry to resolve the issues and wrote to the grantee. In response, the grantee
          agreed that costs of alcohol and entertainment are unallowable, and provided justification for
          certain other items and events charged to program income. The grantee then calculated each
          sponsor's share of support for the conference and promptly reopened and credited the relevant
          grants. In addition, the grantee committed to providing additional written guidance to PIS, and
          described plans to include a workshop on conference grants as part of annual compliance
          training.




NSF OIG Form 2 (1 1/02)
